HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Part A Reimbursement by Blue Cross and Blue Shield of Louisiana, (A-07-95-01140)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Part A Reimbursement by
Blue Cross and Blue Shield of Louisiana," (A-07-95-01140)
February 7, 1996
Complete Text of Report is available in PDF format
(1.1 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Pension Costs Claimed for
Medicare Part A Reimbursement by Blue Cross and Blue Shield of Louisiana (Louisiana).
For 1988 and 1991, we determined that Louisiana under claimed allowable Medicare
Part A pension costs. During this period, the allowable Medicare Part a pension
costs were $90,572. However, Louisiana claimed pension costs of $32,714 for
Medicare reimbursement. As a result, Louisiana did not claim $57,858 of allowable
Part A pension costs. The under claim occurred primarily because Louisiana did
not base their claim on separately computed pension costs for the Medicare segment,
calculated in accordance with the Cost Accounting Standards (CAS). We recommend
that Louisiana revise its Final Administrative Cost Proposals (FACPs) to reflect
the remaining allowable pension costs.